APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Third Circuit, Nat’l Collegiate
Athletic Ass’n v. Governor of New Jersey,
No. 18-3550 (Sept. 24, 2019) ....................... App-1
Appendix B
Order, United States Court of Appeals for
the Third Circuit, Nat’l Collegiate
Athletic Ass’n v. Governor of New Jersey,
No. 18-3550 (Dec. 10, 2019)....................... App-32
Appendix C
Memorandum Opinion, United States
District Court for the District of New
Jersey, Nat’l Collegiate Athletic Ass’n v.
Christie, No. 14-cv-06450 (MAS) (LHG)
(Nov. 16, 2018) ........................................... App-34

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3550
________________
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, an
unincorporated association; NATIONAL BASKETBALL
ASSOCIATION, a joint venture; NATIONAL FOOTBALL
LEAGUE, an unincorporated association; NATIONAL
HOCKEY LEAGUE, an unincorporated association;
OFFICE OF THE COMMISSIONER OF BASEBALL, an
unincorporated association doing business as
MAJOR LEAGUE BASEBALL,
v.
GOVERNOR OF THE STATE OF NEW JERSEY; DAVID L.
REBUCK, Director of the New Jersey Division of
Gaming Enforcement and Assistant Attorney
General of the State of New Jersey; *JUDITH A.
NASON, Acting Executive Director of the New Jersey
Racing Commission; NEW JERSEY THOROUGHBRED
HORSEMEN’S ASSOCIATION, INC.; NEW JERSEY SPORTS
& EXPOSITION AUTHORITY,
STEPHEN M. SWEENEY, President of the New Jersey
Senate; *CRAIG J. COUGHLIN, Speaker of the New
Jersey Assembly,
(Intervenors in
District Court),
New Jersey Thoroughbred Horsemen’s Association,
Inc.,
Appellant.

App-2
*(Amended pursuant to Clerk’s Order dated 12/27/18)
________________
Argued: July 2, 2019
Filed: September 24, 2019
________________
OPINION
________________
RENDELL, Circuit Judge:
Temporary restraining orders are not always a
sure bet. Federal Rule of Civil Procedure 65(c)
requires the party seeking a TRO to “give[] security in
an amount that the court considers proper to pay the
costs and damages sustained by any party found to
have been wrongfully enjoined or restrained.” In this
case, Appellees moved for, and the District Court
entered, a TRO that, among other things, barred the
New Jersey Thoroughbred Horsemen’s Association
(“NJTHA”) from conducting sports gambling on the
basis that New Jersey’s “authorization” of sports
gambling violated the federal Professional and
Amateur Sports Protection Act (“PASPA”), and
required Appellees to post a bond as security. On
appeal, NJTHA and the other defendants successfully
challenged the constitutionality of PASPA in the
Supreme Court, and, on remand, NJTHA sought to
recover on the bond that Appellees had posted. The
District Court denied the motion for judgment on the
bond. Because we conclude that NJTHA was
“wrongfully enjoined” within the meaning of Rule
65(c) and no good cause existed to deny bond damages
in this case, we will vacate and remand.

App-3
I.
Although this appeal concerns NJTHA’s ability to
recover on the bond, that is only the last shoe to drop
in a lengthy saga that involves other overarching
issues, including the constitutionality of PASPA, its
interaction with New Jersey’s attempts to legalize
sports gambling, and the several opinions of the
District Court, this Court, and the Supreme Court in
the two actions litigating these issues among the same
parties. Thus, a thorough review of the unique
procedural history underlying this dispute is
warranted.
A.
In 1992, Congress enacted PASPA, making it
“unlawful” for “a government entity” or a person
acting at the direction of a government entity “to
sponsor, operate, advertise, promote, license, or
authorize by law or compact . . . a lottery,
sweepstakes, or other betting, gambling, or wagering
scheme based . . . on” competitive sporting events. 28
U.S.C. § 3702 (emphasis added). At that time and for
the following nineteen years, New Jersey law
paralleled PASPA, prohibiting sports gambling by its
Constitution and by statute. See, e.g., N.J. Const. art.
IV, § 7, para. 2; N.J. Stat. Ann. § 2C:37-2; N.J. Stat.
Ann. § 2A:40-1. However, in 2011, New Jersey
constituents voted to amend the state’s Constitution
to allow the legislature to authorize sports gambling,
N.J. Const. art. IV, § 7, para. 2(D), (F), and the
legislature did so by enacting the Sports Wagering Act
in 2012 (the “2012 Act”), N.J. Stat. Ann. §§ 5:12A-1 et
seq.

App-4
The National Collegiate Athletic Association and
four professional sports leagues 1 (collectively,
“Appellees” or “the Leagues”), initiated an action in
federal court (“Christie I”) against the New Jersey
Governor and other state officials (collectively, the
“State Defendants”), seeking to enjoin the 2012 Act as
violative of PASPA and arguing that they would be
irreparably injured unless an injunction was issued.
Because it intended to offer sports gambling at
Monmouth Park racetrack, NJTHA intervened. 2 The
defendants did not dispute that the 2012 Act violated
PASPA and instead argued, among other things, that
PASPA unconstitutionally commandeered the states’
sovereign authority. The District Court disagreed,
held that PASPA was constitutional, and enjoined the
implementation of the 2012 Act. See Nat’l Collegiate
Athletic Ass’n v. Christie, 926 F. Supp. 2d 551, 573,
578-79 (D.N.J. 2013). We affirmed, reasoning that
PASPA does not affirmatively command the states to
act and consequently did not prohibit them from
repealing any existing bans on sports wagering. See
Nat’l Collegiate Athletic Ass’n v. Christie, 730 F.3d
208, 231-32 (2013). The Supreme Court denied
certiorari. Christie v. Nat’l Collegiate Athletic Ass’n,
537 U.S. 931 (2014).

The professional sports leagues are the National Basketball
Association; the National Football League; the National Hockey
League; and the Office of the Commissioner of Baseball, doing
business as Major League Baseball.
1

2 Stephen M. Sweeney, President of the New Jersey Senate,
and Sheila Y. Oliver, then Speaker of the New Jersey General
Assembly, also intervened.

App-5
B.
In response to our reasoning that PASPA does not
prohibit states from repealing any existing bans on
sports gambling, the New Jersey legislature enacted a
law repealing certain state law provisions that
prohibited gambling at horserace tracks and casinos
(the “2014 Act”). See 2014 N.J. Sess. Law Serv. Ch. 62
(codified at N.J. Stat. Ann. §§ 5:12A-7 to -9 (repealed
2018)). NJTHA immediately announced its intention
to conduct sports gambling at Monmouth Park.
Appellees filed the instant suit (“Christie II”) and, at
the outset, requested a TRO and preliminary
injunction to enjoin NJTHA from doing so, again
asserting irreparable injury. Appellees also asked the
District Court to restrain the State Defendants from
implementing the 2014 Act and to enforce the
injunction entered in Christie I. They filed their
request on both the Christie I and Christie II dockets.
In response, the defendants relied on our
reasoning in Christie I that the federal law allowed a
repeal of state sports gambling prohibitions. The State
Defendants specifically asserted that a grant of
Appellees’ request would again raise the issue of
PASPA’s constitutionality. See A. 240-41 (“[E]ither
PASPA permits States to repeal their prohibitions
against sports wagering in whole or in part, as does
the 2014 Act, or PASPA unconstitutionally
commandeers states[’] authority by forcing States to
maintain unwanted prohibitions.”). Additionally,
NJTHA argued, among other things, that the Leagues’
assertion that sports gambling would harm them was
false, since they “support, participate in, and
significantly profit from betting on the outcomes of

App-6
their games as well as the performances of the players
in their games.” Br. in Opp’n to Pls.’ Appl. for a TRO
at 35, Nat’l Collegiate Athletic Ass’n v. Christie,
No. 3:14-cv-06450 (D.N.J. Oct. 24, 2014), ECF No. 21.
NJTHA also complained that the Leagues had not
posted a bond, as required by Federal Rule of Civil
Procedure 65, and attached a certification asserting
that they would lose $1,170,219 per week if a TRO was
granted. 3
The District Court granted the requested TRO
and, in doing so, relied on our holding in Christie I that
PASPA is constitutional. The Court ordered Appellees
to post a $1.7 million bond, which it believed was “on
the high side to avoid any potential loss to
defendants.” A. 64. Shortly thereafter, it extended the
TRO for an additional two weeks and increased the
bond amount to a total of $3.4 million.
Just before the TRO was set to expire, the District
Court converted the scheduled hearing on the
Leagues’ request for a preliminary injunction into a
final summary judgment hearing. The Court granted
summary judgment to Appellees, holding that the
2014 Act was “invalid as preempted by PASPA.” Nat’l
Collegiate Athletic Ass’n v. Christie, 61 F. Supp. 3d
488, 506 (D.N.J. 2014). It also entered a permanent
injunction against the State Defendants, enjoining
them “from violating PASPA through giving operation
or effect to the 2014 [Act] in its entirety.” 4 Id.

3 Appellees did not contest this amount and instead argued that
they should not be required to put up a bond.
4

The District Court did not permanently enjoin NJTHA.

App-7
On appeal, this Court first affirmed the District
Court’s order. See Nat’l Collegiate Athletic Ass’n v.
Governor of New Jersey, 799 F.3d 259, 261 (3d Cir.
2015). We then granted NJTHA’s petition for
rehearing en banc and again affirmed the grant of
summary judgment. See Nat’l Collegiate Athletic Ass’n
v. Governor of New Jersey, 832 F.3d 389, 392 (3d Cir.
2016) (en banc). In doing so, we determined that the
2014 Act, like its predecessor, “authorize[d]” sports
gambling in violation of PASPA. Id. at 396. We
explicitly rejected our reasoning in Christie I that a
repeal is not an “affirmative authorization.” Id. at 39697. Instead, we looked to “what the provision actually
does” and held that, “[w]hile artfully couched in terms
of a repealer, the 2014 [Act] essentially provides that,
notwithstanding any other prohibition by law, casinos
and racetracks shall hereafter be permitted to have
sports gambling,” which “is an authorization.” Id. at
397. We then went on to again reiterate PASPA’s
constitutionality. Id. at 399.
The Supreme Court granted certiorari and
reversed our en banc judgment. See Murphy v. Nat’l
Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1485 (2018).
Although the Court agreed with one aspect of our
ruling, namely, that a repeal of a law banning an
activity constitutes an “authoriz[ation]” of that
activity, id. at 1474, the Court concluded that
PASPA’s prohibition of sports gambling violated the
Constitution’s anticommandeering principle because
“state legislatures are [still] put under the direct
control of Congress,” id. at 1478.

App-8
C.
After prevailing in the Supreme Court, NJTHA
filed a motion in the District Court for judgment on
the bond. 5 The Court ordered briefing on whether
NJTHA was “wrongfully enjoined,” whether NJTHA
was entitled to recover the full bond amount as a
matter of law without proving actual loss, and
whether NJTHA’s claim for damages greater than the
bond amount could be decided as a matter of law.
There was no discovery on the actual loss amount.
The District Court denied NJTHA’s motion. First,
it determined that NJTHA was not “wrongfully
enjoined” per Federal Rule of Civil Procedure 65(c).
The Court thought that “NJTHA’s contention that it is
entitled to damages under the injunction bond
conflate[d] the issue of whether the 2014 [Act]
authorized sports betting with the Supreme Court’s
ultimate holding that PASPA is unconstitutional.”
A. 18. The District Court narrowly characterized the
issue before it at the TRO stage as “whether the 2014
[Act] . . . effectively authorized sports betting in
violation of PASPA” and noted that both the Third
Circuit and the Supreme Court agreed with its
conclusion that the 2014 Act did so. A. 16 (citation and
internal quotation marks omitted). The Court stated,
“That PASPA’s constitutionality was introduced on
appeal does not convert the bond, which assured that

5 NJTHA also sought interest and damages for the post-TRO
period (from the District Court’s grant of summary judgment
through the Supreme Court’s judgment), the latter of which was
for Appellees’ “bad faith by wrongfully blocking the NJTHA from
operating a sports betting venue.” A. 355.

App-9
the 2014 [Act] amounted to an authorization, into a
bond that assured any and all possibilities.” A. 19.
The District Court also held that, even if NJTHA
had been wrongfully enjoined, good cause existed to
deny NJTHA’s motion. In doing so, the Court relied on
Coyne-Delany Co. v. Capital Development Board, in
which the Seventh Circuit held that “a prevailing
defendant is entitled to damages on the injunction
bond unless there is a good reason for not requiring
the plaintiff to pay in the particular case” and listed
factors to be considered in determining whether good
reason exists. 717 F.2d 385, 391-392 (7th Cir. 1983).
The District Court considered one factor that had been
relied upon by the Court in Coyne, namely, a change
in the law. The District Court here reasoned that the
law in this case had changed, characterizing PASPA
as “constitutionally valid” in 2014, when the TRO was
entered, and invalid in 2018. A. 20. NJTHA timely
appealed the District Court’s order.
On appeal, NJTHA urges that the District Court
was wrong on both counts. Specifically, NJTHA
argues that the Court erred in holding that it was not
“wrongfully enjoined” because (1) entry of the TRO
was premised on the constitutionality of PASPA,
which the Supreme Court ultimately held was
unconstitutional, and (2) the District Court incorrectly
considered the law at the time it entered the TRO, as
opposed to the law at the time of the Supreme Court’s
final judgment, in making that determination.
NJTHA also urges that the District Court erred by
exercising its discretion to deny bond damages and in
concluding that there was good cause to do so. On this
front, NJTHA claims that discretion to deny bond

App-10
damages under Rule 65(c) does not exist and the
Seventh Circuit case relied upon by the District Court
is not controlling. 6
II.
The District Court had jurisdiction pursuant to 28
U.S.C. § 1331. This Court has jurisdiction under 28
U.S.C. § 1291. Because NJTHA challenges the District
Court’s interpretation of Federal Rule of Civil
Procedure 65(c), we review the District Court’s order
de novo. Garza v. Citigroup, Inc., 881 F.3d 277, 280 (3d
Cir. 2018).
III.
Federal Rule of Civil Procedure 65(c) states, in
relevant part:
The court may issue a preliminary injunction
or a temporary restraining order only if the
movant gives security in an amount that the
court considers proper to pay the costs and
damages sustained by any party found to
have been wrongfully enjoined or restrained.
The Rule itself only implies “that when a party has
been wrongfully enjoined, it may collect some or all of
the security.” Global Naps, Inc. v. Verizon New
England, Inc., 489 F.3d 13, 20 (1st Cir. 2007). It does
not explicitly address when an enjoined party may
recover on a bond, nor does it indicate whether and to
what extent a district court has discretion to deny
damages. Although these issues have been considered
6 NJTHA also argues that it is entitled to automatic recovery of
the bond amount and excess for Appellees’ bad faith. Because
these issues were not addressed by the District Court, we will not
consider them.

App-11
by a number of other circuits, they are matters of first
impression in our Court.
A.
We first consider the meaning of “wrongfully
enjoined” and whether NJTHA was wrongfully
enjoined by the TRO issued in Christie II. We join the
other circuits that have explicitly interpreted this
term and hold that a party is wrongfully enjoined
when it turns out that that party had a right all along
to do what it was enjoined from doing. See Global
Naps, 489 F.3d at 22 (“[A] party is wrongfully enjoined
when it had a right all along to do what it was enjoined
from doing.”); Slidell, Inc. v. Millennium Inorganic
Chems., Inc., 460 F.3d 1047, 1059 (8th Cir. 2006) (“[A]
party has been wrongfully enjoined if it is ultimately
found that the enjoined party had at all times the right
to do what it was enjoined from doing.”); Nintendo of
Am. v. Lewis Galoob Toys, 16 F.3d 1032, 1036 (9th Cir.
1994) (“[A] party has been wrongfully enjoined within
the meaning of Rule 65(c) when it turns out the party
enjoined had the right all along to do what it was
enjoined from doing.”); Blumenthal v. Merrill Lynch,
Pierce, Fenner & Smith, Inc., 910 F.2d 1049, 1054 (2d
Cir. 1990) (stating that a party has been wrongfully
enjoined when the “party had at all times the right to
do the enjoined act”).
The parties disagree on the application of this
standard to the case at hand. NJTHA urges that,
because the Supreme Court ultimately held that
PASPA is unconstitutional, it “turned out” that it had
a right all along to conduct sports gambling and was,
therefore, “wrongfully enjoined.” Appellees disagree,
claiming that we should consider both the state of the

App-12
law and the specific issue before the District Court at
the time the TRO was granted. They argue that
because “the constitutionality of PASPA was settled
law in this Circuit” at the time the TRO was entered
and because the District Court’s holding on the only
issue before it at that time (i.e., that the 2014 Act
“authorized” sports gambling) was confirmed by this
Court and the Supreme Court, NJTHA was not
“wrongfully enjoined.” Br. for Appellees at 20.
Appellees also urge that a determination that NJTHA
was wrongfully restrained would require us to apply
the Supreme Court’s holding retroactively.
Appellees’ arguments are flawed for three
reasons. First, Appellees read the procedural history,
as the District Court did, a bit too narrowly. One
might ask, if Christie II involved only the discrete
issue of “authorization” and had nothing to do with the
constitutionality of PASPA, how could the Supreme
Court, in granting certiorari from Christie II (after
having denied it from Christie I), address the issue of
the constitutionality of PASPA and declare it
unconstitutional? The answer is: because the
constitutionality
of
PASPA
was
inexorably
intertwined with the issues in Christie II. Indeed, the
State Defendants specifically urged that “either
PASPA permits States to repeal their prohibitions
against sports wagering in whole or in part, as does
the 2014 Act, or PASPA unconstitutionally
commandeers states[’] authority by forcing States to
maintain unwanted prohibitions.” And we addressed
the issue of PASPA’s constitutionality in Christie II in
much more than cursory fashion, although noting that
it had been specifically ruled upon in Christie I. Even
though the case before the Supreme Court emanated

App-13
from two discrete actions, the Supreme Court clearly
considered the cases to be the proverbial “whole ball of
wax.” That the District Court parsed the issues based
upon the limited nature of the subject matter it
believed it addressed in the TRO order does not control
the fact that the constitutionality of PASPA was
imbedded in that subject matter by virtue of our
opinion in Christie I. 7
Second, Appellees’ view conflates whether
NJTHA was “wrongfully enjoined” with whether the
District Court abused its discretion in issuing the
TRO. In Sprint Communications Co. v. CAT
Communications International, Inc., we made clear
that “wrongfully enjoined” “does not necessarily
[mean] that the district court abused its discretion in

Our disagreement with the dissent stems from the nature of
the issues raised in the unusual procedural setting of the Christie
cases, and our differing views as to how narrowly we parse what
was before the District Court when it entered the TRO.
7

Christie I was all about the constitutional implications of
removing prohibitions, versus “affirmatively authorizing”; the
latter constituting problematic commandeering. In opposing the
TRO, the State Defendants called on the “definitive” holding in
Christie I, quoting from our opinion: “the lack of an affirmative
prohibition of an activity does not mean it is affirmatively
authorized by law.” A. 239 (quoting Christie I, 730 F.3d at 232).
At the same time they maintained their fallback position noted
above, that if the legislation “authorized,” then PASPA
unconstitutionally commandeers.
Thus, “authorizing” was not a discrete issue but, rather, one
with weighty constitutional baggage. The District Court in
Christie II decided the issue of authorization within, as the
District Court noted, the “framework” of Christie I and its
commandeering analysis.

App-14
granting the relief in the first place.” 8 335 F.3d 235,
242 n.9 (quoting Blumenthal, 910 F.2d at 1054)
(internal quotation marks omitted) (alteration in
original). Instead, as noted above, whether a party is
wrongfully enjoined depends upon whether it turns
out that that party had a right all along to conduct the
activity it was enjoined from doing. The entire concept
of “wrongfully enjoined” envisions a look back from the
ultimate conclusion of the case: Should the enjoined
party have been permitted to do what it was prevented
from doing? Thus, whether a party was wrongfully
enjoined depends upon the final judgment on the
merits. See id. (“[T]he ultimate determination
whether a party was wrongfully enjoined and can
recover on the injunction bond generally must wait
until ‘after a trial and final judgment on the merits.’”
(citation omitted)); see also Global Naps, 489 F.3d at
23 (stating that whether a party is “wrongfully
enjoined” is determined by the final judgment).
Perhaps one could plausibly read Rule 65(c) as
asking whether the District Court abused its
discretion in granting the TRO. But this would distort
the plain meaning and purpose of the rule. First, the
rule allows defendants to collect on the bond if they
are “found to have been wrongfully enjoined or
restrained.” Fed. R. Civ. P. 65(c) (emphasis added).
The use of a past tense verb phrase—found to have
been—is important. See U.S. v. Wilson, 503 U.S. 329,
333 (1992) (“Congress’ use of a verb tense is significant
8 Indeed, in Nintendo, the Ninth Circuit had, in an earlier
decision, upheld the district Court’s issuance of the preliminary
injunction but, later, ultimately determined that the defendant
was wrongfully enjoined. 16 F.3d at 1036 n.4.

App-15
in construing statutes.”). It suggests that we look back
at the propriety of the injunction from the vantage
point of the conclusion of the litigation, rather than
stepping into the shoes of the District Court at the
time the injunction was issued. If “wrongfully
enjoined” concerned only the propriety of the issuance
of an injunction, then Rule 65(c) would explicitly state
a requirement that the injunction was improperly
entered. But to focus on whether a TRO was
wrongfully issued misses the mark. “Wrongfully
enjoined” focuses on the right of an enjoined party to
engage in certain conduct. 9 For example, imagine that
X asks a district court for a TRO against Y. X urges
that Y’s actions violate a federal law, Statute A. The
parties and the district court assume that Y’s actions
violate the general terms of Statute A—their only
focus is on whether Y’s conduct fits within a certain
exception to Statute A, Exception B. The court rules
that Exception B does not apply to Y and issues the
TRO. But an appellate court, much to X and Y’s
surprise, finds that the district court’s discussion of
Exception B is irrelevant because Y does not violate
the general terms of Statute A. Was Y wrongfully
The dissent urges that the NJTHA was not wrongfully
enjoined because the District Court properly issued the TRO
under PASPA, four years before the Supreme Court held it
unconstitutional. But that is not the relevant question. Rather, it
is whether the defendant was wrongfully enjoined given what we
know today. We agree with the dissent that the District Court
“faithfully followed our precedent.” Dissenting Op. at 6. But this
is not incompatible with our holding. The District Court can
faithfully apply our precedent, and still, when the litigation has
reached its conclusion, the defendant may be found to have been
wrongfully enjoined. Such is the case here.
9

App-16
enjoined? Yes. While the district court’s reasoning
may have been correct, i.e., that Y’s conduct does not
fit within the terms of Exception B, and the court may
have correctly interpreted the legal issue that was
pressed by the parties, nevertheless, Y was still
wrongfully enjoined, because it turned out that Y had
a right to do all along what he was enjoined from
doing.
Similarly, in Nintendo, the enjoined defendant
introduced defenses at trial that it had not asserted at
the preliminary injunction stage. 16 F.3d at 1034. The
defendant ultimately prevailed. Id. That the new
defenses were not considered when the TRO was
entered but may have affected the final outcome of the
case did not preclude a holding that the defendant had
been wrongfully enjoined. See id. at 1037-38.
Similarly, in this case, the fact that the District Court
may not have erred in its ruling in entering the TRO
in Christie II does not speak to whether NJTHA had a
right all along to conduct sports gambling. 10 Because
a court can only be certain of an enjoined party’s rights
after a case has been fully litigated, “wrongfully
enjoined” can only be determined after a final
judgment on the merits.
In their final argument, Appellees assert that
accepting NJTHA’s argument would require us to
retroactively apply the Supreme Court’s holding that
10 Nor was the District Court “bound by this Court’s holding in
Christie I” to enter the TRO and summary judgment for
Appellees. Br. for Appellees at 9. The District Court might have,
instead, seized upon our reasoning that a repeal would not be an
authorization in violation of PASPA, as the State Defendants did
in enacting the 2014 Act.

App-17
PASPA is unconstitutional. Indeed, in the mine-run of
cases where a statute has been held to be
unconstitutional, the issue of its retroactive
application to invalidate previous final orders
necessarily arises. See Chicot Cty. Drainage Dist. v.
Baxter State Bank, 308 U.S. 371, 374 (1940)
(instructing that “[q]uestions of rights claimed to have
become vested, of status, of prior determinations
deemed to have finality and acted upon accordingly, of
public policy in the light of the nature both of the
statute and of its previous application” be considered
when determining whether a new rule applies
retroactively). But that body of caselaw, and indeed
retroactivity itself, is not implicated when we are
asked to determine whether a party was “wrongfully
enjoined.” 11 Did it turn out that NJTHA had the right
all along to do what they were enjoined from doing?
There is no way that the answer to that question could
be “no.” That answer would render the bond provision,
indeed the concept of “wrongfully enjoined,” entirely
meaningless. The lookback that is envisioned in the
Rule is not an issue of retroactivity, or applying a
ruling to undo or affect previous rulings; instead, it
requires a simpler inquiry as to whether, if we knew
then what we know now, should NJTHA have been
restrained? This does not require the court at the bond
hearing to ask, as the dissent seems to urge, whether
the TRO was wrongfully issued, or to nullify any
11 The dissent seems to reason that there needed to be a court
finding that the NJTHA had been wrongfully enjoined or
restrained. Again, that is not an issue to be decided later in the
case, but instead, is what the court at the bond hearing must
assess, after the case is fully concluded.

App-18
intervening action as invalid. See, e.g., Dissenting Op.
at 5 n.3. Here the “full deliberation” urged by the
dissent came with the Supreme Court’s consideration
of the case as a whole, and its declaration of PASPA’s
unconstitutionality. Because the answer to that
question is “no,” the answer to whether it was
wrongfully restrained must be “yes.”
Here, PASPA provided the only basis for enjoining
NJTHA from conducting sports gambling, and the
Supreme Court ultimately held that that law is
unconstitutional. Therefore, NJTHA had a right to
conduct sports gambling all along. We conclude that
NJTHA was wrongfully enjoined and should be able to
call on the bond.
B.
We next evaluate whether and to what extent a
district court has discretion to deny bond damages and
whether doing so was proper in this case. A clear
majority of our sister circuits have held that there is a
rebuttable presumption that a wrongfully enjoined
party is entitled to recover provable damages up to the
bond amount. See Front Range Equine Rescue v.
Vilsack, 844 F.3d 1230, 1234 (10th Cir. 2017)
(“[W]here there is a finding that a defendant has been
wrongfully enjoined, there is a presumption of
recovery and the district court’s discretion to deny
damages is limited.”); Nokia Corp. v. InterDigital, Inc.,
645 F.3d 553, 558-59 (2d Cir. 2011) (“Although we hold
that a wrongfully enjoined party is entitled to a
presumption in favor of recovery, that party is not
automatically entitled to the damages sought. The
presumption applies to ‘provable’ damages.”); Global
Naps, 489 F.3d at 23 (“[W]e adopt the majority rule

App-19
that there is a rebuttable presumption that a
wrongfully enjoined party is entitled to have the
security executed so as to recover provable damages
up to the amount of the security.”); Nintendo, 16 F.3d
at 1036 (“[W]e join what appears to be the majority
and hold there is a rebuttable presumption that a
wrongfully enjoined party is entitled to have the bond
executed and recover provable damages up to the
amount of the bond.”); Nat’l Kidney Patients Ass’n v.
Sullivan, 958 F.2d 1127, 1134 (D.C. Cir. 1992), cert.
denied, 506 U.S. 1049 (1993) (“[A] defendant injured
by a wrongfully issued preliminary injunction is
presumptively entitled to recovery on the injunction
bond.”); Coyne, 717 F.2d at 391 (agreeing with the
majority approach that “a prevailing defendant is
entitled to damages on the injunction bond unless
there is a good reason for not requiring the plaintiff to
pay in the particular case”). As noted by many of those
courts, this rule is “strongly implied” in Rule 65(c)
itself. Nokia Corp., 645 F.3d at 558; see also Global
Naps, 489 F.3d at 20; Nat’l Kidney, 958 F.2d at 1135
(citing Coyne, 717 F.2d at 390-91) (“Although the Rule
does not explicitly address the disposition of the bond
once the injunction is found wrongful, payment to the
injured defendant seems almost inescapable, since the
Rule imposes a requirement of security for the precise
purpose
of
assuring
compensation
of
the
defendant . . . .”). Moreover, the rule increases
predictability of the law, see Coyne, 717 F.2d at 392,
“discourag[es] parties from requesting injunctions
based on tenuous legal grounds,” Nintendo, 16 F.3d at
1037, and conserves judicial resources, since “a
defendant who can recover damages against a
preliminary injunction bond will be less likely to file a

App-20
separate malicious prosecution action,” id. Because
the presumption in favor of recovery is rebuttable, the
rule still affords courts some discretion to “decline to
impose damages on the rare party who has lost a case
on the merits but nevertheless should not suffer the
execution of the preliminary injunction bond.” Id.
Appellees, however, urge us to adopt the approach
espoused by the Fifth Circuit in H&R Block, Inc. v.
McCaslin, which provides, “The awarding of damages
pursuant to an injunction bond rests in the sound
discretion of the court’s equity jurisdiction.” 541 F.2d
1098, 1099 (5th Cir. 1976) (per curiam). But the Fifth
Circuit stands alone on this issue, 12 and the viability
of that ruling has since been called into question by a
more recent opinion. See Continuum Co. v. Incepts,
Appellees cite to Page Communications Engineers, Inc. v.
Froehlke, 475 F.2d 994, 997 (D.C. Cir. 1973), as additional
authority for the minority approach. However, the D.C. Circuit
more recently interpreted Page as aligning with the majority
approach:
12

In Page we rejected a claim that Rule 65(c)
automatically entitled defendants to recovery on the
bond on a showing of damage, regardless of the
equities of the case. We clearly regarded those equities
as leaning toward the plaintiff; although we spoke
loosely of the plaintiff’s “good faith”, arguably
suggesting that that was enough to negate recovery on
the bond, we also noted that the injunction might
never have been granted if the government defendant
had brought a specific study to the court’s attention in
a timely fashion. Accordingly, we do not read Page as
adopting a maverick view but rather as in accord with
the accepted presumption in favor of recovery.
Nat’l Kidney, 958 F.2d at 1134 (citations omitted), cert. denied,
506 U.S. 1049 (1993).

App-21
Inc., 873 F.2d 801, 803 (5th Cir. 1989) (stating that
Rule 65(c)’s requirement of a bond “assures the
enjoined party that it may readily collect damages
from the funds posted or the surety provided in the
event that it was wrongfully enjoined, without further
litigation and without regard to the possible
insolvency of the assured” (emphasis added) (citing
Coyne, 717 F.2d at 391)). Because the majority
approach is implied in the language of Rule 65(c) and
promotes its goals, we now adopt that rule.
Although it relied on Coyne in its analysis on this
issue, the District Court failed to apply the
presumption in favor of recovery that the Court in
Coyne applied. Nor did the District Court note the
main thrust of the Seventh Circuit’s reasoning in that
case, namely, that a district court is required to
“consider and evaluate the full range of
factors . . . that would be relevant under the proper
standard.” Coyne, 717 F.2d at 392. These include, but
are not limited to, a defendant’s failure to mitigate
damages, Nokia Corp., 645 F.3d at 559, the
reasonableness of the damages sought, id., the
outcome of the underlying suit, Coyne, 717 F.2d at 392,
and the parties’ resources, id. 13 Only after listing and

Appellees claim that we should also consider their good faith
in requesting the TRO. However, this is not a factor properly
considered in the good cause analysis because “[g]ood faith in the
maintenance of litigation is . . . expected of all litigants” and,
otherwise, the presumption in favor of awarding bond damages
would “congeal[] virtually into a rock.” Nintendo, 16 F.3d at 1037
(quoting Nat’l Kidney, 958 F.2d at 1135 (internal quotation
marks omitted); see also Coyne, 717 F.2d at 392 (stating that good
faith would be a sufficient reason to deny bond damages “only if
13

App-22
discussing these factors did the Court in Coyne
reference the factor relied upon by the District Court
here to deny damages, namely, a change in the law.
See id. at 392. The Court there stated, “We do not
believe that a change in the law is always a good
ground for denying costs and injunction damages to a
prevailing party, but it is a legitimate consideration,
perhaps especially where the prevailing party is a
state agency that benefited from a change in the law
of its state.” Id. at 392-93.
None of the factors cited in Coyne rebut the
presumption that NJTHA is entitled to recover bond
damages in this case. Appellees have not claimed that
NJTHA has failed to mitigate its damages or that the
bond amount is unreasonable, 14 and the underlying
suit resulted in a judgment in NJTHA’s favor. And, as
to a change in the law, this case does not involve the
type of “change in law” contemplated by Coyne. There,
the district court, in issuing the preliminary
injunction, had relied on an intermediate state
appellate court decision holding that an indirect
bidder had a property right in being allowed to bid on
a public contract. See Coyne, 717 F.2d at 389. While
the suit was pending, the state Supreme Court
reversed course and held that no such property right
existed. See id. Here, there was no change in the state
of the law while the case was in the federal court.
Instead, the defendants in this case successfully
challenged the constitutionality of PASPA on appeal,
the presumption were against rather than in favor of awarding
costs and damages on the bond to the prevailing party”).
14 In fact, the bond amount was set well below what NJTHA
had requested.

App-23
such that they ultimately prevailed. That is not a
change in the law; that is success on the merits.
Accordingly, we conclude that NJTHA is entitled to
recover provable damages up to the bond amount.
IV.
We will vacate the denial of NJTHA’s motion for
judgment on the bond and damages, and remand for
the District Court to determine the amount to be
collected. 15

On remand, NJTHA will have the burden of showing
provable damages. Virginia Plastics Co. v. Biostim Inc., 820 F.2d
76, 80 n.6 (3d Cir. 1987). Although it is not required to prove an
amount “to a mathematical certainty,” Global Naps, 489 F.3d at
23-25, it must establish what damages were proximately caused
by the erroneously issued injunction . . . and the alleged damages
cannot be speculative,” Virginia Plastics Co., 820 F.2d at 80 n.6.
15

App-24
PORTER, Circuit Judge, dissenting.
I disagree with the majority’s holding that the
New Jersey Thoroughbred Horsemen’s Association
(“NJTHA”) was wrongfully enjoined for two reasons.
First, the Supreme Court invalidated the Professional
and Amateur Sports Protection Act (“PASPA”) on
constitutional grounds, but the temporary restraining
order was not based on PASPA’s constitutionality.
Instead, the District Court considered whether New
Jersey law complied with PASPA itself. And even in
striking down PASPA, the Supreme Court agreed with
the District Court on that statutory question. Second,
I disagree that the Supreme Court’s decision holding
PASPA unconstitutional necessarily means that the
NJTHA was wrongfully enjoined under the PASPAbased TRO issued four years earlier. This holding
requires indulging the fiction—not available to the
District Court that issued the TRO—that PASPA
never existed at all.
I
There were two proceedings involving these
parties. The first one, Christie I, involved a straighton constitutional challenge. The second one, Christie
II, presented a much narrower statutory question. The
majority ably recites this procedural history, but the
different issues involved in the two proceedings
deserve highlighting.
Christie I started when the major professional
sports leagues (collectively, the “Leagues”) banded
together to oppose a 2012 New Jersey law allowing
sports betting at horse racetracks and casinos. The
Leagues argued that the law violated PASPA. In
response, the defendants directly challenged

App-25
“PASPA’s constitutionality; specifically, whether it
violated the Commerce Clause, the Tenth
Amendment, the Due Process Clause and related
Equal Protection principles, or the Equal Footing
Doctrine.” Nat’l Collegiate Athletic Ass’n v. Christie,
No. CV146450MASLHG, 2018 WL 6026816, at *1
(D.N.J. Nov. 16, 2018). In early 2013, the district court
denied the defendants’ constitutional challenge. 926 F.
Supp. 2d 551, 579 (D.N.J.). It upheld PASPA and
permanently enjoined New Jersey officials from
enforcing the 2012 law. Id. We affirmed and the
Supreme Court denied certiorari. 730 F.3d 208, 215
(3d Cir. 2013); 573 U.S. 931 (2014).
The second proceeding—Christie II—started in
2014, when New Jersey enacted a revised law to
repeal restrictions on gambling. Soon after the 2014
law passed, the Leagues again sued, seeking to enjoin
implementation of the 2014 law. The District Court
granted the Leagues’ TRO request but required them
to post a security bond under Rule 65(c) of the Federal
Rules of Civil Procedure. The bond was originally set
at $1.7 million, and after the TRO was extended
another two weeks, was increased to $3.4 million.
In November 2014—after the TRO had been in
place for 28 days—the District Court granted
summary judgment for the Leagues. 61 F. Supp. 3d
488, 491 (D.N.J. 2014). Properly applying our Christie
I decision, it held that the 2014 law authorized sports
betting, which violated PASPA. Id. at 505. The
District Court rejected the characterization of the
2014 law as a more limited, permissible successor:
While styled as a partial repeal, the 2014 Law
would have the same primary effect of the

App-26
2012 Law—allowing sports wagering in New
Jersey’s
casinos
and
racetracks
for
individuals age twenty-one and over but not
on college sporting events that take place in
New Jersey or on New Jersey college teams.
This necessarily results in sports wagering
with the State’s imprimatur, which goes
against the very goal of PASPA—to ban
sports wagering pursuant to a state scheme.
Id.
Once again, the District Court’s decision was
appealed, and once again, we affirmed in a panel
decision. 799 F.3d 259 (3d Cir. 2015). We re-heard the
case en banc and once more affirmed the District
Court. We explained that although the 2014 law was
“artfully couched in terms of a repealer,” it
“essentially” legalized gambling. 832 F.3d 389, 397 (3d
Cir. 2016) (en banc). Under PASPA, “[t]his is an
authorization.” Id.
The losing parties, including the NJTHA, again
sought review from the Supreme Court. This time,
they got it. In May 2018, the Supreme Court held that
PASPA unconstitutionally commandeered state
legislatures, violating the Tenth Amendment. Murphy
v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1478
(2018). But the Supreme Court agreed with the
District Court (and this Court) on the issue litigated
in Christie II: “[w]hen a State completely or partially
repeals old laws banning sports gambling, it
‘authorize[s]’ that activity.” Id. at 1474 (alteration
original).
In the wake of Murphy, the NJTHA asked the
District Court to award it the $3.4 million bond. The

App-27
NJTHA argued that the Supreme Court’s holding that
PASPA was unconstitutional meant that the NJTHA
was wrongfully enjoined for 28 days in late 2014. The
District Court rejected this request and the NJTHA
appealed.
II
Under Rule 65(c), a “court may issue a
preliminary injunction or a temporary restraining
order only if the movant gives security in an amount
that the court considers proper to pay the costs and
damages sustained by any party found to have been
wrongfully enjoined or restrained.” Fed. R. Civ. P.
65(c). “The purpose of this provision is to enable a
restrained or enjoined party to secure indemnification
for any costs … and any damages that are sustained
during the period in which a wrongfully issued
equitable order remains in effect.” Charles A. Wright
& Arthur R. Miller, 11A Federal Practice & Procedure:
Civil, § 2954 (3d ed.).
The majority opinion aligns our Court with others
that have interpreted Rule 65(c) to “hold that a party
is wrongfully enjoined when it turns out that that
party had a right all along to do what it was enjoined
from doing.” Maj. Op. 13 (collecting cases). I agree that
this is the correct standard, but I disagree with its
application here. In the sister circuit cases cited by the
majority, the injunction and full merits proceedings
addressed essentially the same issues. At the very
least, none of these cases involve an appellate court
expressly upholding the basis of the injunction while
nonetheless deciding for the enjoined party on other
grounds. So while these cases properly articulate the

App-28
standard, their application of that standard offers
little guidance in this situation.
That is because here, no court at any point “found”
the NJTHA “to have been wrongfully enjoined or
restrained.” Fed. R. Civ. P. 65(c). Quite the contrary,
in fact. As the procedural history shows, the District
Court issued the TRO based on its conclusion that the
2014 law violated PASPA. Christie II, 61 F. Supp. 3d
488, 491 (D.N.J. 2014). We affirmed, holding that the
2014 law violated PASPA by authorizing gambling.
Christie II, 832 F.3d 389, 397 (3d Cir. 2016) (en banc).
And the Supreme Court agreed that New Jersey’s
repealer law was actually an authorization. Murphy,
138 S. Ct. 1461, 1474 (2018). 1 In sum, every court to
have considered the issue of whether the 2014 law was
actually an authorization—the very ground for the
TRO—agreed with the District Court. 2
The majority correctly reads the Supreme Court’s decision to
have “agreed with one aspect” of our decision—“namely, that a
repeal of a law banning an activity constitutes an
‘authoriz[ation]’ of that activity.” Maj. Op. 9.
1

To be sure, the NJTHA’s failure to re-litigate PASPA’s
constitutionality in Christie II was hardly improper. Our decision
in Christie I made the constitutional issue res judicata. As the
NJTHA acknowledges, any follow-on constitutional challenge
would have “been an exercise in futility,” since a “lower court has
no power to overrule the precedent of its judicial superior.”
NJTHA Br. 28.
2

In spite of that acknowledgment, the majority views Christie
I’s constitutional question and Christie II’s statutory question as
forming the same “ball of wax.” Maj. Op. 14. But the fact that the
Supreme Court reached more broadly to decide the constitutional
question does not mean that the statutory and constitutional
questions were intertwined for purposes of the TRO. That TRO
issue was much narrower. While the Supreme Court had wide

App-29
Given the unanimity on this statutory point, the
NJTHA must rely on a far-reaching view of
retroactivity to support its claim that it was
wrongfully enjoined. The majority purports to sidestep
this point, asserting without any explanation that
retroactivity is not implicated in this analysis at all.
In its view, Rule 65 presents “a simpler inquiry” that
asks “whether, if we knew then what we know now,
should NJTHA have been restrained?” Maj. Op. 19.
But that begs the question by simply assuming that
the Supreme Court’s 2018 decision on the
commandeering issue means that PASPA never
existed—in other words, the statute was void ab initio.
That questionable assumption is the only way to
explain the majority’s assertion that the NJTHA had
the right “all along” to conduct sports gambling. Maj.
Op. 13. But the Supreme Court has long cautioned
against stretching this concept too far. See Chicot Cty.
Drainage Dist. v. Baxter State Bank, 308 U.S. 371, 374
(1940) (“The actual existence of a statute, prior to [a
determination of unconstitutionality], is an operative
fact and may have consequences which cannot justly
be ignored. The past cannot always be erased by a new
judicial declaration.”). 3 The majority thus commits the
discretion to review the commandeering question, on which it
passed in Christie I, that issue was not before the District Court
in Christie II.
3 See also United States v. Baucum, 80 F.3d 539, 541 (D.C. Cir.
1996) (per curiam) (denying argument “premised on the theory
that if an Act of Congress is unconstitutional, it is void ab initio,
and any action taken pursuant to it is thus invalid,” noting that
the Supreme Court “has rejected such a broad-sweeping
proposition”); cf. State of Kan. ex rel. Stephan v. Adams, 705 F.2d
1267, 1270 (10th Cir. 1983) (explaining that “the TRO was not

App-30
“writ-of-erasure fallacy,” or the mistaken “assumption
that a judicial pronouncement of unconstitutionality
has canceled or blotted out a duly enacted statute” and
rendered it a nullity. Jonathan F. Mitchell, The Writof-Erasure Fallacy, 104 Va. L. Rev. 933, 937 (2018).
Such an expansive view of retroactivity in this
context is out of step with Rule 65’s function. The
rule’s bond requirement “is rooted in the belief that a
defendant deserves protection against a court order
granted without the full deliberation a trial offers.”
Am. Bible Soc. v. Blount, 446 F.2d 588, 595 n.12 (3d
Cir. 1971). In other words, the bond protects the
enjoined party “if it turns out that the order issued
was erroneous in the sense that it would not have been
issued if there had been the opportunity for full
deliberation.” Id. Here, of course, the District Court
engaged in just that full deliberation following the
TRO, satisfying Rule 65.
That full deliberation separates this case from the
usual instances of a party being found to have been
wrongfully enjoined. Typically, this finding occurs
after the trial court’s merits adjudication following the
temporary injunction. 4 The finding may also be made
dissolved because it was wrongfully issued, but rather because of
an intervening event,” noting that it was “the intervention of
Congress that brought about the change”).
See, e.g., Sprint Commc’ns Co. L.P. v. CAT Commc’ns Int’l,
Inc., 335 F.3d 235, 242 n.9 (3d Cir. 2003) (“But the ultimate
determination whether a party was wrongfully enjoined and can
recover on the injunction bond generally must wait until ‘after a
trial and final judgment on the merits.’ (quoting Clark v. K-Mart
Corp., 979 F.2d 965, 969 (3d Cir. 1992) (en banc)); U.S. D.I.D.
Corp. v. Windstream Commc’ns, Inc., 775 F.3d 128, 139 (2d Cir.
2014) (“That a trial on the merits is usually required to determine
4

App-31
by an appellate court reversing a temporary
injunction. See Div. No. 1, Detroit, Bhd. of Locomotive
Engineers v. Consol. Rail Corp., 844 F.2d 1218, 1225
(6th Cir. 1988) (collecting cases). But the majority has
not cited any case in which an appellate decision like
Murphy—agreeing with the basis for the injunction
while invalidating the law on other grounds—has
supported a finding that a party was wrongfully
enjoined.
*****
In sum, I see little support for holding that a party
was wrongfully enjoined when the District Court
faithfully followed our precedent—as we and the
Supreme Court acknowledged even as the Supreme
Court invalidated the underlying law on different
grounds. Had the District Court based the TRO on the
constitutional question ultimately decided by the
Supreme Court, I would view this matter differently.
But that is not what happened here. And without an
actual finding that a party was wrongfully enjoined,
Rule 65 is not satisfied. Because the majority holds
otherwise, I respectfully dissent.

whether the defendant was entitled to engage in the conduct that
was enjoined is true irrespective of whether the defendant seeks
recovery on security posted to secure a TRO or a preliminary
injunction.”).

App-32
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________
No. 18-3550
________________
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, an
unincorporated association; NATIONAL BASKETBALL
ASSOCIATION, a joint venture; NATIONAL FOOTBALL
LEAGUE, an unincorporated association; NATIONAL
HOCKEY LEAGUE, an unincorporated association;
OFFICE OF THE COMMISSIONER OF BASEBALL, an
unincorporated association doing business as
MAJOR LEAGUE BASEBALL,
v.
GOVERNOR OF THE STATE OF NEW JERSEY; DAVID L.
REBUCK, Director of the New Jersey Division of
Gaming Enforcement and Assistant Attorney
General of the State of New Jersey; *JUDITH A.
NASON, Acting Executive Director of the New Jersey
Racing Commission; NEW JERSEY THOROUGHBRED
HORSEMEN’S ASSOCIATION, INC.; NEW JERSEY SPORTS
& EXPOSITION AUTHORITY,
STEPHEN M. SWEENEY, President of the New Jersey
Senate; *CRAIG J. COUGHLIN, Speaker of the New
Jersey Assembly,
(Intervenors in
District Court),
New Jersey Thoroughbred Horsemen’s Association,
Inc.,
Appellant.

App-33
*(Amended pursuant to Clerk’s Order dated 12/27/18)
________________
Filed: December 10, 2019
________________
Present: SMITH, Chief Judge, McKEE, AMBRO,
JORDAN, HARDIMAN, GREENAWAY, JR.,
KRAUSE, RESTREPO, BIBAS, and PORTER,
Circuit Judges, and RENDELL *, Senior Circuit
Judge
________________
ORDER
________________
The petition for rehearing filed by appellees in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the
circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en banc, is
denied.
BY THE COURT,
s/MARJORIE O. RENDELL
Circuit Judge
Dated: December 10, 2019

* Pursuant to Third Circuit I.O.P. 9.5.3, the vote of Judge
Rendell is limited to panel rehearing only.

App-34
Appendix C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
________________
No. 14-cv-06450 (MAS) (LHG)
________________
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION, et al.,
Plaintiffs,
v.
CHRISTOPHER J. CHRISTIE, et al.,
Defendants.
________________
Filed: Nov. 16, 2018
________________
MEMORANDUM OPINION
________________
SHIPP, District Judge
This matter comes before the Court on Defendant
New Jersey Thoroughbred Horsemen’s Association,
Inc.’s (“NJTHA”) Motion for Judgment on $3.4 Million
Injunction Bond Plus Interest and Damages. (ECF No.
80.) 1 Plaintiffs 2 National Collegiate Athletic

1 Unless otherwise noted, citations to the docket refer to Civil
Action No. 14-6450.
2 Plaintiffs originally initiated this action against, among
others, former New Jersey Governor Christopher J. Christie in
his official capacity. (ECF No. 1.) Although Christopher J.
Christie is no longer the current Governor of New Jersey, the

App-35
Association
(“NCAA”),
National
Basketball
Association (“NBA”), National Football League
(“NFL”), National Hockey League (“NHL”), and Office
of the Commissioner of Baseball, doing business as
Major League Baseball (“MLB”), (collectively
“Plaintiffs” or the “Leagues”) opposed (ECF No. 91),
and NJTHA replied 3 (ECF No. 93). The Court has
considered the parties’ submissions and decides the
matter without oral argument pursuant to Local Civil
Rule 78.1. For the reasons stated below, the Court
denies NJTHA’s Motion for Judgment on $3.4 Million
Injunction Bond Plus Interest and Damages.
I.

Background

The instant motion arises out of a dispute
between Plaintiffs and Defendants Christopher J.
Christie, former Governor of the State of New Jersey;
David L. Rebuck, Director of the New Jersey Division
of Gaming Enforcement and Assistant Attorney
General of the State of New Jersey; Frank Zanzuccki,
Executive Director of the New Jersey Racing
Commission; the New Jersey Sports and Exposition
Authority; and NJTHA (collectively “Defendants”). 4
Court maintains Christopher J. Christie as a Defendant for
consistency.
Plaintiffs filed correspondence with the Court requesting
leave to file a sur-reply, contending NJTHA mischaracterized
facts and procedural history that foreclosed Plaintiffs’ ability to
seek discovery pertaining to damages. (ECF No. 97.) Because the
Court finds NJTHA is not entitled to damages, the Court denies
as moot Plaintiffs’ request to file a sur-reply.
3

4 On November 6, 2014, the Presiding Officers of the New
Jersey Legislature, Stephen M. Sweeney, then President of the
New Jersey Senate, and Vincent Prieto, then Speaker of the New
Jersey General Assembly, requested leave to intervene as

App-36
The underlying facts and procedural history have been
discussed previously and need not be repeated here at
great length. Instead, the Court provides only those
facts immediately relevant to NJTHA’s motion.
A. Christie I
In 2012, the State of New Jersey enacted
legislation that legalized and regulated sports betting
at New Jersey horse racetracks and casinos for
individuals aged twenty-one and older (the “2012
Law”). The Leagues initiated an action, arguing the
law violated the Professional and Amateur Sports
Protection Act, 28 U.S.C. §§ 3701-3704 (“PASPA”).
PASPA prohibited any individual or public entity from
authorizing “betting, gambling, or wagering” on
professional or amateur sporting events. 28 U.S.C.
§ 3702. NJTHA intervened as a Defendant,
contending it planned to implement sports betting at
the Monmouth Park racetrack. (Mot. to Intervene 7,
No. 12-4947, ECF No. 72-1.) During that action, the
predominant issue before the Court was PASPA’s
constitutionality; specifically, whether it violated the
Commerce Clause, the Tenth Amendment, the Due
Process Clause and related Equal Protection
principles, or the Equal Footing Doctrine. NCAA v.
Christie, 926 F. Supp. 2d 551, 554 (D.N.J. 2013)
(“Christie I”). 5

defendants (ECF No. 46), which the Court granted on November
7, 2014 (ECF No. 48).
5 The Court refers to 926 F. Supp. 2d 551 (D.N.J. 2013) and all
related proceedings arising under docket number 12-4947, and
all appeals arising therefrom as Christie I.

App-37
On February 28, 2013, the Court, relying on Office
of the Commissioner of Baseball v. Markell, 579 F.3d
293 (3d Cir. 2009), found PASPA constitutionally
valid, and permanently enjoined the defendants from
enforcing the 2012 Law. Id. at 579. The Third Circuit
subsequently reviewed de novo the Court’s
determination and affirmed, holding, “Having
examined the . . . legal issues raised by the parties, we
hold that nothing in PASPA violates the U.S.
Constitution. The law neither exceeds Congress’
enumerated powers nor violates any principle of
federalism implicit in the Tenth Amendment or
anywhere else in our Constitutional structure.”
Christie I, 730 F.3d 208, 240 (3d Cir. 2013). The Third
Circuit further held:
[U]nder PASPA, on the one hand, a state may
repeal its sports wagering ban, a move that
will result in the expenditure of no resources
or effort by any official. On the other hand, a
state may choose to keep a complete ban on
sports gambling, but it is left up to each state
to decide how much of a law enforcement
priority it wants to make of sports gambling,
or what the exact contours of the prohibition
will be.
Id. at 233. On June 23, 2014, the Supreme Court
denied certiorari. Christie I, 134 S. Ct. 2866 (2014).
B. Christie II
In October 2014, the State enacted legislation
designed to partially repeal state laws and regulations
that prohibited sports gambling in certain
circumstances (the “2014 Repealer Law”). On October
20, 2014, the Leagues filed another Complaint against

App-38
Defendants, which now included NJTHA, seeking to
enjoin implementation and enforcement of the 2014
Repealer Law. (Compl., ECF No. 1.) The following day,
in response to NJTHA’s stated intention to
immediately implement sports betting, the Leagues
moved for a temporary restraining order (“TRO”) and
a preliminary injunction, requesting that the Court
enjoin Defendants from “giving effect to” the 2014
Repealer Law. (TRO Appl. Br. 1, ECF No. 12-2.)
NJTHA opposed, and further requested that the Court
order Plaintiffs to post a security bond pursuant to
Federal Rule of Civil Procedure 65(c). (NJTHA TRO
Opp’n Br. 35, ECF No. 21.)
The Court granted the Leagues’ TRO application
in an oral opinion. (TRO Op. Oct. 24, 2014, ECF
No. 41.) The Court also ordered the Leagues to post a
security bond in the amount of $1.7 million. (Id. at 19.)
After extending the TRO another fourteen days, the
Court ordered the Leagues to post another $1.7
million, totaling $3.4 million. (ECF No. 38; see also
Bond Correspondence, ECF No. 47.)
On November 21, 2014, the Court sua sponte
consolidated the Leagues’ preliminary injunction
motion with a final disposition on the merits and
granted summary judgment in the Leagues’ favor.
NCAA v. Christie, 61 F. Supp. 3d 488, 491 (D.N.J.
2014) (“Christie II”). 6 Unlike the Court’s Christie I
analysis, which considered PASPA’s constitutionality,
in Christie II, the Court confined its analysis to “the
novel issue of whether the 2014 [Repealer] Law, which
6 The Court refers to 61 F. Supp. 3d 488 (D.N.J. 2014) and all
related proceedings arising under docket number 14-6450, and
all appeals arising therefrom as Christie II.

App-39
purport[ed] to partially repeal New Jersey legislation”
effectively amounted to an authorization of sports
betting in violation of PASPA. See id. at 498. Relying
on the Third Circuit’s Christie I decision, the Court
found the 2014 Repealer Law authorized sports
betting in violation of PASPA. Id. at 498. Specifically,
the Court stated,
While styled as a partial repeal, the 2014
[Repealer] Law would have the same primary
effect of the 2012 Law—allowing sports
wagering in New Jersey’s casinos and
racetracks for individuals age twenty-one and
over but not on college sporting events that
take place in New Jersey or on New Jersey
college teams. This necessarily results in
sports wagering with the State’s imprimatur,
which goes against the very goal of PASPA—
to ban sports wagering pursuant to a state
scheme.
Id. at 505. On December 2, 2014, while the matter was
on appeal before the Third Circuit, the Court denied
the Leagues’ request to discharge the bond. (ECF
No. 72.)
A Third Circuit panel subsequently affirmed the
Court’s decision. Christie II, 799 F.3d 259 (3d Cir.
2015). In August 2016, the Third Circuit, sitting en
banc, again affirmed the Court’s decision by a nine-tothree vote, stating, “While artfully couched in terms of
a repealer, the 2014 [Repealer] Law essentially
provides that, notwithstanding any other prohibition
by law, casinos and racetracks shall hereafter be
permitted to have sports gambling. This is an
authorization.” Christie II, 832 F.3d 389, 397 (3d Cir.

App-40
2016). Consequently, the Third Circuit held, the 2014
Repealer Law “violates PASPA because it authorizes
by law sports gambling.” Id. at 396.
On May 14, 2018, the Supreme Court held PASPA
unconstitutionally commandeered state legislatures
in violation of the Tenth Amendment. Christie II, 138
S. Ct. 1461 (2018). In arriving at that conclusion,
however, the Supreme Court held, “When a State
completely or partially repeals old laws banning
sports gambling, it ‘authorize[s]’ that activity.” Id. at
1472, 1474. Thus, the Supreme Court determined that
even though the 2014 Repealer Law was framed as a
repealer, it effectively authorized sports gambling.
After making this determination, the Supreme Court
turned to the issue of PASPA’s constitutionality, and
held PASPA violated the anticommandeering
doctrine. Id. at 1478. NJTHA filed the instant Motion
shortly after the Supreme Court issued its decision.
(ECF No. 80.)
II. Discussion
Under Federal Rule of Civil Procedure 7 65(c), “the
[C]ourt may issue a preliminary injunction or a [TRO]
only if the movant gives security in an amount that
the [C]ourt considers proper to pay the costs and
damages sustained by any party found to have been
wrongfully enjoined or restrained.” An injunction bond
issued under Rule 65(c) “provides a fund to use to
compensate incorrectly enjoined defendants.” Sprint
Commc’ns Co. v. CAT Commc’ns Int’l Inc., 335 F.3d
235, 240 (3d Cir. 2003) (citation omitted). “A
7 Unless otherwise noted, all references to Rules hereinafter
refer to the Federal Rules of Civil Procedure.

App-41
wrongfully enjoined defendant must establish what
damages were proximately caused by the erroneously
issued injunction in order to recover and the alleged
damages cannot be speculative.” Va. Plastics Co. v.
Biostim, Inc., 820 F.2d 76, 80 n.6 (3d Cir. 1987)
(citation omitted). Rule 65.1 provides the procedure
for an enjoined party to collect damages on an
injunction bond. Fed. R. Civ. P. 65.1.
The Court, accordingly, must determine whether
NJTHA was wrongfully enjoined. “[A] party is
wrongfully enjoined when it had a right all along to do
what it was enjoined from doing.” Latuszewski v.
VALIC Fin. Advisors, Inc., 393 F. App’x 962, 966 (3d
Cir. 2010) (quoting Glob. Naps, Inc. v. Verizon New
England, Inc., 489 F.3d 13, 22 (1st Cir. 2007)). Thus,
the issue before the Court is whether NJTHA “had a
right all along” to act pursuant to the 2014 Repealer
Law—a law that violated a federal statute that the
Third Circuit had already held was constitutional and
upon which the Supreme Court declined certiorari
when originally provided with the opportunity to
consider the statute’s constitutionality.
NJTHA’s contention that it is entitled to damages
under the injunction bond conflates the issue of
whether the 2014 Repealer Law authorized sports
betting with the Supreme Court’s ultimate holding
that PASPA is unconstitutional. As the Leagues
assert, PASPA’s “constitutionality was not even at
issue in the TRO proceedings. Rather, the issue for
which the bond was posted in 2014 was whether New
Jersey’s ‘partial repeal’ of its sports wagering
prohibitions was an authorization on sports betting”

App-42
in violation of PASPA. (Pls.’ Opp’n Br. 18, ECF
No. 91.) 8
In issuing the TRO, this Court was presented with
the narrow question of whether the 2014 Repealer
Law, styled as a “partial repeal,” effectively
authorized sports betting in violation of PASPA. And,
factually speaking, the Court issued the bond to
assure the interim holding that the 2014 Repealer
Law was an authorization in violation of a previouslyaffirmed constitutional statute. This Court, the Third
The parties also argue the Court’s analysis must come down
to a matter of perspective. Specifically, NJTHA argues the Court
must consider the issue not “from the perspective of one looking
forward from the date the injunction was issued, but instead from
the perspective of one looking backward with the benefit of
hindsight from the date of the ultimate decision on the merits.”
(NJTHA Reply Br. 3, ECF No. 93.) NJTHA therefore contends
that it was always entitled to conduct sports betting at
Monmouth Park because the Supreme Court invalidated PASPA.
(Id.) In contrast, the Leagues argue the Court must consider the
issue from the perspective of the state of the law in 2014, and
“[t]hat the Supreme Court struck down PASPA ... in 2018 is
insufficient to summarily conclude that NJTHA had the right to
operate a sports book in 2014.” (Pls.’ Opp’n Br. 17.) Thus, the
Leagues contend that because “[t]he Third Circuit had repeatedly
determined PASPA to be ·constitutional,” the Court did not
wrongfully enjoin NJTHA when it relied upon binding Third
·circuit precedent. (Id.) NJTHA’s argument fails because its
inability to conduct sports betting was secondary to the issue of
whether the 2014 Repealer Law amounted to an authorization.
As the Leagues stated in their Reply in support of their
preliminary injunction motion, “Unlike Christie I, this case does
not require the Court to decide issues of standing and the
constitutionality of PASPA. This case simply requires a
construction of the 2014 Sports Wagering Law to determine that
it does not comply with PASPA . . . .” (Pls.’ Consolidated Reply in
Supp. of a Mot. for a Prelim. Inj. 18, Ex. 26, ECF No. 80-8.)
8

App-43
Circuit, and the Supreme Court all found the 2014
Repealer Law authorized sports betting. That
PASPA’s constitutionality was introduced on appeal
does not convert the bond, which assured that the
2014 Repealer Law amounted to an authorization,
into a bond that assured any and all possibilities.
The NJTHA ultimately prevailing on the
constitutionality issue does not equate to it being
wrongfully enjoined on the authorization issue. The
Court, accordingly, finds NJTHA was not wrongfully
enjoined based upon the instant matter’s specific
procedural and factual background.
Notwithstanding the Court’s analysis regarding
whether NJTHA was wrongfully enjoined, the Court
also finds good cause exists under the instant facts to
deny NJTHA damages arising under the injunction
bond. See Coyne-Delany Co. v. Capital Dev. Bd., 717
F.2d 385, 390 (7th Cir. 1983) (“[A] prevailing
defendant is entitled to damages on the injunction
bond unless there is a good reason for not requiring
the plaintiff to pay in the particular case.”). In Coyne,
a case upon which both parties rely, the Seventh
Circuit held:
In deciding whether to withhold costs or
injunction damages, not only is the district
court to be guided by the implicit
presumption in Rules 54(d) and 65(c) in favor
of awarding them, 9 but the ingredients of a
9 It is unclear whether a wrongfully enjoined party is entitled
to a presumption of recovery of damages. See, e.g., Latuszewski,
393 F. App’x at 966 (internal quotation marks and citation
omitted) (“The [plaintiffs] argue that there is a presumption in
favor of recovery of damages from a wrongful injunction, but even

App-44
proper decision are objective factors–such as
the resources of the parties, the defendant’s
efforts or lack thereof to mitigate [its]
damages, and the outcome of the underlying
suit—accessible to the judgment of a
reviewing court.
Id. at 392 (footnote added). (NJTHA Moving Br. 32,
ECF No. 80-1; Pls.’ Opp’n Br. 17-18.) Notably, the
Seventh Circuit further established that a change in
the law may be “a legitimate consideration” for the
Court to examine in determining whether to award
injunction damages to a prevailing party. Id. at 390,
392-93 (affirming the district court’s consideration
that “[t]he law as it existed at the time the case was
filed clearly favored the plaintiffs. It would be
unreasonable to require a party to anticipate a change
in the law . . . .”). Here, in 2014, PASPA was
constitutionally valid. This Court found, and the Third
Circuit and Supreme Court confirmed, the 2014
Repealer Law effectively authorized sports betting.
Thus, the law as it existed in 2014 clearly favored the
Leagues, and it would be unreasonable for the Court
to allow NJTHA to recover under the injunction bond
in light of the Leagues’ correct interpretation that the
2014 Repealer Law authorized sports betting in
violation of the governing law at that time. The Court,
accordingly, finds good cause exists to deny NJTHA
damages under the injunction bond. 10 See, e.g., id. at
if that is so, the wrongfully enjoined party is only entitled to
provable damages.”)
10 The Court further questions the extent to which it could
award NJTHA the full amount of damages under the injunction
bond considering the Leagues posted the bond for the security of

App-45
390 (“[A] district court has unquestioned power in an
appropriate case not to award costs to the prevailing
party and not to award damages on an injunction bond
even though the grant of the injunction was
reversed . . . .”).
III. Conclusion
The Court denies NJTHA’s Motion for Judgment
on the $3.4 Million Injunction Bond and Damages. The
Court will issue an Order consistent with this
Memorandum Opinion.
[handwritten: signature]
Michael A. Shipp
United States District
Judge

all Defendants, and not solely NJTHA. (See Bond
Correspondence.) The Court, however, need not address that
concern or NJTHA’s remaining arguments because it finds
NJTHA was not wrongfully enjoined and, notwithstanding the
wrongfully enjoined analysis, good cause exists to deny NJTHA
damages under the injunction bond.

